No. 20-649

1Jn tbe ~upreme ClCourt of tbe Wniteb ~tates
LEVEL THE PLAYING FIELD, PETER ACKERMAN,
GREEN PARTY OF THE UNITED STATES, and
LIBERTARIAN NATIONAL COMMITTEE, INC.
Petitioners,
V.

FEDERAL ELECTION COMMISSION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I certify that the Reply
Brief for Petitioners contains 2,772 words, excluding the parts of the document
that are exempted by Supreme Coui·t Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 26, 2021.

ALEXANDR~. SHAPIRO
SHAPIRO ARATO BACH LLP

500 Fifth Avenue
40th Floor
New York, NY 10110
(212) 257-4880
ashapiro@shapiroarato.com

Counsel for Petitioners

